                                                                            DoD Chaplain Program
                                                                                               November 2004
                             Who Should Read This Report and Why?
                             Civilian and military program managers with responsibility for full time
                             chaplains throughout the Federal Government should read this report. The
                             report discusses program policy in depth without focusing on any specific faith
                             or religion. In March 2003, Senator Charles Schumer requested that DoD
                             conduct an inquiry into the vetting of muslim clerics. In October 2003, the
                             Principal Deputy Under Secretary of Defense for Personnel and Readiness
                             testified on the officership and credentialing of military chaplains for the
                             Military Departments, and stated that the Inspector General of the Department
 The final report may be     of Defense would address the Senator’s concerns.
  obtained through our
        website at           What Was Identified.
  www.dodig.osd.mil          The DoD chaplain program reflects the efforts of the Office of the Secretary
                             of Defense and the Services to meet the spiritual needs of Service members,
                             while balancing national security and religious freedom. DoD process
                             controls limit program participation to clergy that fulfill the religious needs
           VISION
                             of members of the Armed Forces, their family members, and other
  A professional team of     authorized individuals, such as military retirees and civilian employees. The
      outcome-oriented       chaplain program stresses religious pluralism to fulfill those needs.
    inspectors promoting     The focus of program regulations and procedures is to obtain professionally
      positive change by     qualified clergy and to verify the candidate’s officership, professional, and
 identifying opportunities   religious qualifications. Officership qualifications for chaplains are virtually
     for performance and     identical to the qualifications of military officers recruited for other
efficiency improvements in   specialties. The professional qualifications for chaplains are similar and
 Department programs and     comparable to other military professionals, such as doctors and lawyers.
          operations.
                             DoD relies on religious organizations and their representative agents, who
                             are outside government purview, to determine religious qualifications for
                             endorsing chaplain candidates.
                             During our review, DoD chaplain program officials updated policy and
                             incorporated many of our suggested changes. However, the Deputy Under
         MISSION             Secretary of Defense for Military Personnel Policy could further improve
     The Directorate of      operating procedures to administer DoD policies regarding religious
      Inspections and        organizations and their agents who endorse chaplain candidates.
   Evaluations conducts
objective and independent    How it Can Be Improved.
     customer-focused
management and program       We recommended that DoD program officials (1) establish procedures to
  inspections addressing     verify or revalidate religious organizations and their agents who endorse
     areas of interest to    chaplain candidates; (2) establish criteria to disqualify religious
      Congress and the       organizations and their endorsing agents for cause; (3) establish procedures
 Department of Defense,      to collect adverse information when religious organizations, endorsing
    and provides timely      agents, or chaplains fail to meet established criteria; and (4) complete,
        findings and         publish, and implement updated program policy (completed). The Deputy
recommendations leading      Under Secretary of Defense for Military Personnel Policy nonconcurred with
   to positive changes in    the recommendation that DoD collect adverse information on religious
         programs.           organizations and their endorsing agents. We also recommend that Army
                             and Navy Chiefs of Chaplains modify Military Department policy to
                             authorize Service officials to withdraw the chaplain insignia of office for
                             chaplains undergoing dismissal proceedings for cause. The Navy concurred
                             and will consider the recommendation when revising Navy instructions. The
                             Army nonconcurred.

                                                         Office of the Inspector General of the Department of Defense
                                                                                              Report No. IE-2004--001
GENERAL INFORMATION

Forward questions or comments concerning the evaluation of the DoD chaplain program and
other activities conducted by the Inspections & Evaluations Directorate to:

                               Inspections & Evaluations Directorate
                  Office of the Deputy Inspector General for Inspections & Policy
                   Office of the Inspector General of the Department of Defense
                                       400 Army Navy Drive
                                  Arlington, Virginia 22202-4704
                                    crystalfocus@dodig.osd.mil

An overview of the Inspector General of the Department of Defense mission and organizational
structure is available at http://www.dodig.osd.mil.




TO REPORT FRAUD, WASTE, AND ABUSE

Contact the OIG DoD Hotline by telephone at (800) 424-9098, by e-mail at
hotline@dodig.osd.mil or in writing:

                                    Defense Hotline
                                    The Pentagon
                                    Washington, D.C. 20301-1900
                              TABLE OF CONTENTS

Executive Summary                                                      1
Results
     Purpose                                                           4
     Background                                                        4
     Methodology                                                       9
     Overall Assessment                                               10
Observations
     Additions of New Religions to the Chaplain Program               13
     Review and Recognition of Religious Organizations                15
     Procedures for Recruiting, Accessing, Training, Retaining, and
        Dismissing Chaplains                                          22
     Oversight of Chaplains Program                                   25


                                  List of Appendixes

Appendix A        Methodology                                         28
Appendix B        Congressional Concerns                              29
Appendix C        Policy Memorandum                                   31
Appendix D        DoD Comments                                        32
Appendix E        Army Comments                                       36
Appendix F        Navy Comments                                       37
Appendix G        Organizations Visited                               38
Appendix H        Acronym List                                        39
Appendix I        Report Distribution                                 40
Executive Summary
DoD Chaplain Program
Purpose: Our overall objective was to evaluate the efficacy of the DoD processes to:
               •   add new religions to the chaplain program;
               •   recognize and review chaplain endorsing ecclesiastical organizations;
               •   recruit, train, retain, and dismiss chaplains; and
               •   provide Military Departments and Office of the Secretary of Defense
                   oversight of chaplain programs.

Background: Allegations against Islamic religious organizations that endorsed Islamic
chaplains to the Military Departments generated congressional concerns about the credibility of
the DoD accession process for military chaplains. Beginning in March 2003, Senator Charles
Schumer sent a series of letters to the DoD Inspector General requesting an inquiry into the
organizations vetting candidates and the process for selecting Islamic chaplains for the Military
Departments. The Inspector General subsequently recommended to the Under Secretary of
Defense for Personnel and Readiness that the Department consider vetting religious
organizations that provide chaplain endorsing services to the Department of Defense and
subsequently discussed the recommendation with congressional leaders. On October 14, 2003,
the Principal Deputy Under Secretary of Defense for Personnel and Readiness testified before
the Senate Judiciary Subcommittee on Terrorism, Technology, and Homeland Security on the
officership and credentialing of military chaplains. We initiated this evaluation on October 23,
2003, to respond to Senator Schumer’s request.

Results: The DoD chaplain program reflects the efforts of OSD and the Services to meet the
spiritual needs of Service members, while balancing national security and religious freedom.
DoD process controls limit program participation to clergy that fulfill the religious needs of
members of the Armed Forces, their family members, and other authorized individuals, such as
military retirees and civilian employees. The chaplain program stresses religious pluralism to
fulfill those needs.

The focus of program regulations and procedures is to obtain professionally qualified clergy and
to verify the candidate’s officership and trustworthiness, as well as professional and religious
qualifications. Officership qualifications for chaplains are virtually identical to the qualifications
of military officers recruited for other specialties. The professional qualifications for chaplains
are similar and comparable to other military professionals, such as doctors and lawyers. The
certification of religious qualifications is unique within the military in that the leaders of a faith
group determine the religious qualifications of their clergy person. DoD relies on religious
organizations and their agents to determine religious qualifications for endorsing chaplain
candidates.




                                                  1
DoD developed and implemented controls over the accession, conduct, and dismissal of military
chaplains. During our review, program officials updated policy and incorporated many of our
suggested changes. However, the Deputy Under Secretary of Defense for Military Personnel
Policy could further improve operating procedures of the Armed Forces Chaplains Board to
administer DoD policies regarding religious organizations and their agents who endorse chaplain
candidates. We identified five opportunities to improve the overall chaplain program:
       1. The Armed Forces Chaplains Board should establish internal operating procedures to
          verify or revalidate religious organizations and their agents who endorse chaplain
          candidates.

       2. The chaplain program should establish disqualification criteria for religious
          organizations and/or their endorsing agents.

       3. The Deputy Under Secretary of Defense for Military Personnel Policy should
          establish procedures to identify when religious organizations, endorsing agents, or
          chaplains fail to meet DoD Chaplain program policy.

       4. The Deputy Under Secretary of Defense for Military Personnel Policy should
          complete, publish, and implement an updated program policy, and should effectively
          communicate the changed requirements to all program stakeholders.

       5. The Army and the Navy Chiefs of Chaplains should address the withdrawal of the
          chaplain insignia of office for those chaplains undergoing dismissal proceedings.
          (Note: The Air Force has already established this policy.)

On June 11, 2004, the Deputy Under Secretary of Defense for Military Personnel Policy reissued
DoD Directive 1304.19, “Appointment of Chaplains for the Military Departments,” and issued
the implementing DoD Instruction 1304.28, “Guidance for the Appointment of Chaplains for the
Military Departments,” dated June 11, 2004. During our evaluation, we reviewed the draft
documents and identified areas for improvement. The Deputy Under Secretary of Defense
Military Personnel Policy agreed with our suggestions and incorporated the changes to the draft
policy.

Management Comments. The Acting Deputy Under Secretary of Defense for Military
Personnel Policy concurred with Observations 1, 2, and 5. He nonconcurred with Observation 3,
stating that “suggested actions were legally problematic to the DoD Office of General Counsel.”
He stated “a chaplain ordinarily receives sufficient scrutiny for selection, appointment, and
merit-based retention – all centering on individual merit. However, consistent with longstanding
practice, Treasury’s Internal Revenue Service should remain the focal point for institutional
merit.” Furthermore, he stated that DoD IG should “report its concerns regarding the frequency
of review of previous tax-exemption determinations, to Treasury’s Inspector General and urge
more frequent review.” See Appendix D for the complete response.

The Army nonconcurred with Observation 4 stating “current Army policies and personnel
procedures provide for adjudication of offenses within the Army's legal and administrative
systems. These extant procedures for judicial and non-judicial personnel actions are applicable
to all officers including chaplains. Removal of an officer's designation as chaplain ought not to


                                                 2
be punitive or viewed as an initial response to alleged offenses or misconduct. No requirement
exists to remove a chaplain's branch designation as a primary response to an alleged offense.”
See Appendix E for the complete response.

The Navy concurred with Observation 4, stating, “current Navy policies and personnel
procedures provide for adjudication of offenses within the Navy's legal and administrative
systems. These extant procedures for judicial and non-judicial personnel actions are applicable
to all officers including chaplains. Removal of an officer's designation as chaplain ought not to
be punitive or viewed as an initial response to alleged offenses or misconduct. No requirement
exists to remove a Chaplain's Corps designation as a primary response to an alleged offense.
However, there may be reason to explore such authority and procedure after initial actions have
been taken and are to be done so from the standpoint of professional qualifications to provide
religious ministry in the Department of the Navy. Currently several instructions governing the
policy on chaplain service in the Navy are under revision. The recommendation of the DoD IG
will be considered during this process.” See Appendix F for the complete response.

I&E Response. The Acting Deputy Under Secretary of Defense for Military Personnel Policy
comments are not fully responsive to the recommendation. The intent of the recommendations
was to develop a process to react to available information, not to proactively judge institutional
merit. DoD should be able to reject endorsements from any religious organization or endorsing
agent convicted of terrorist or criminal actions. We do not anticipate that DoD would
contemplate adverse action while an investigation of alleged wrongdoing was under way.
However, DoD may address congressional concerns by taking appropriate action on
organizations and agents that the courts have found guilty of violating laws aimed at
safeguarding the safety of the United States and its citizens. The DoDI 1304.28 and the Under
Secretary of Defense October 14, 2003 memorandum (Appendix C) requires tax exemption
status for ecclesiastical endorsing organizations. Resolving concerns about the credibility for
DoD’s use of the Department of the Treasury’s Internal Revenue Code 501(c)(3) as a tax-exempt
requirement is the responsibility of the Deputy Under Secretary of Defense for Military
Personnel Policy.

We expanded the discussion in Observation 3, revised Recommendations a. and b., and added
Recommendations c. and d. to emphasize the need for due diligence in recognizing religious
organizations and their endorsing agents. The Acting Deputy Under Secretary of Defense for
Military Personnel Policy is requested to comment on the final report by December 17, 2004.

The Recommendation to Observation 4 concerns chaplains undergoing actions that warrant relief
from duties or dismissal for cause. The Air Force has procedures in place for the removal of
chaplain designation and insignia. The Navy concurred with Observation 4, and their comments
were responsive to the Recommendation. We request that the Army reconsider its position on
this Recommendation and provide a formal response to the final report. We believe that the
removal of a chaplain designation is not punitive in nature. Instead, the designation removal is
protective of those members of the military that might assume an officer wearing the designation
is a practicing chaplain. Otherwise, a military member could request professional services such
as counseling, communion, or the hearing of confession from a chaplain who may be unqualified
or suspended from chaplain duties.


                                                3
Results

Purpose
             To evaluate the efficacy of the DoD processes to:
                •   add new religions to the chaplain program;
                •   recognize and review chaplain endorsing ecclesiastical
                    organizations;
                •   recruit, train, retain, and dismiss chaplains; and
                •   provide Military Departments and Office of the Secretary of
                    Defense oversight of chaplain programs.


Background
             Legal actions against Islamic religious organizations that provided
             Islamic chaplains to the Military Departments generated
             congressional attention concerning the credibility of the DoD
             accession process for military chaplains. Beginning in March 2003,
             Senator Charles Schumer sent a series of letters to the DoD Inspector
             General requesting an inquiry into the organizations vetting
             candidates and the process for selecting Islamic chaplains for the
             Military Departments. On October 14, 2003, the Principal Deputy
             Under Secretary of Defense for Personnel and Readiness testified
             before the Senate Judiciary Subcommittee on Terrorism,
             Technology, and Homeland Security on the officership and
             credentialing of military chaplains. We initiated this evaluation on
             October 23, 2003, to respond to Senator Schumer’s request. The
             DoD Inspector General met with the members of the Senate
             Judiciary Subcommittee on Terrorism, Technology, and Homeland
             Security on October 28, 2003. During this meeting, the Senators
             expressed their concern with current Islamic chaplains and the
             religious organizations (ROs) that endorse them. Congressional
             questions raised during testimonies are addressed in Appendix B,
             “Congressional Concerns.” For this review, we chose not to focus
             on any particular faith group, but, instead, considered the overall
             process to effectively manage the DoD chaplain program.




                                 4
Religious Freedom in the United States
                    The First Amendment of the United States Constitution prohibits
                    Congress from passing laws regarding the establishment of religion,
                    or prohibiting the free exercise of religion. Consistent with the First
                    Amendment, as a general proposition, Government agencies cannot
                    favor one religion over another and should not interfere with or
                    infringe upon an individual’s practice of religion. However, the free
                    exercise clause of the First Amendment may not prevent the
                    Government from requiring or forbidding the performance of an act
                    based on religious beliefs, e.g., payment of taxes.

DoD Practices Incorporate Constitutional Rights to Religious Freedom
                    Military commanders are responsible for mission accomplishment
                    and the good order and discipline of their units. Commanders are
                    also required to provide appropriate religious support to all
                    authorized individuals within their command. To balance religious
                    freedom and military necessity, DoD established policy stating that
                    commanders should approve requests for accommodation of
                    religious practices when the accommodation will not have an
                    adverse impact on military readiness, unit cohesion, standards, or
                    discipline. However, practices and rituals associated with the
                    individual’s religious beliefs and creed must not be illegal or
                    contrary to clearly defined public policy. DoD appoints
                    professionally qualified clergy to accommodate the free exercise of
                    religion in the context of military service.

Exemplary Conduct Standards for Commanders and “Others in
Authority” in the Military Services
                    Title 10 United States Code § Sections 3583, 5947, and 8583 require
                    Army, Navy, and Air Force commanding officers and others in
                    authority to:
                       •   show in themselves a good example of virtue, honor,
                           patriotism, and subordination;
                       •   be vigilant in inspecting the conduct of all persons who are
                           placed under their command;
                       •   guard against and suppress all dissolute and immoral
                           practices, and to correct, according to the laws and Service
                           regulations, all persons who are guilty of them; and
                       •   take all necessary and proper measures, under the laws,
                           regulations, and customs of the Service to promote and
                           safeguard the morale, the physical well-being, and the
                           general welfare of the officers and enlisted persons under
                           their command or charge.


                                        5
    The DoD Chaplain Program
                               DoD recruits military chaplains to provide spiritual care for all
                               members of the Military Departments, their family members, and
                               other authorized persons, such as military retirees and civilian
                               employees. Religious pluralism is a fundamental concept of the
                               program. Chaplains are expected to perform ministry for their own
                               faith group and provide for the rights and needs of other faith groups
                               in their areas of responsibility.
                               The Under Secretary of Defense for Personnel and Readiness
                               (USD[P&R]) exercises responsibility for the chaplain program
                               through the Deputy Under Secretary of Defense for Military
                               Personnel Policy (DUSD[MPP]). DoD Directive (DoDD) 5120.8,
                               “Armed Forces Chaplains Board Charter,” established the Armed
                               Forces Chaplains Board (AFCB), consisting of the Chiefs and the
                               Deputy Chiefs of Chaplains of the Army, the Navy, and the Air
                               Force. Among its other duties, the AFCB makes recommendations
                               to DUSD(MPP) on religious, ethical, and moral standards for the
                               Military Departments, and policies for the protection of religious
                               guarantees under the First Amendment of the U.S. Constitution. The
                               USD(P&R) is the decision authority for recommendations
                               concerning the chaplain program.
                               As of November 2003, the Military Departments had almost 2,900
                               active duty chaplains serving approximately 2.5 million active duty
                               and reserve members. The Army had 1,367, the Navy had 912, and
                               the Air Force had 612 active duty chaplains. DoD has nearly 4,800
                               total chaplains including those in the Reserve and National Guard.
                               The Marine Corps uses Navy chaplains for religious ministry. The
                               majority of Military chaplains are members of five faith groups:
                               Protestant, Roman Catholic, Orthodox, Jewish, and Muslim.


    DoD Policies and Procedures
                               The DoD chaplain program is governed by DoDD 1304.19,
                               “Appointment of Chaplains for the Military Services,”
                               September 18, 1993, and an October 14, 2003 policy memorandum1
                               on the same subject signed by the Principal Deputy Under Secretary
                               of Defense for Personnel and Readiness (see Appendix C). In
                               addition, the Army, the Navy, and the Air Force each have unique
                               regulations governing their respective chaplain program.
                               The focus of the DoD chaplain program is recruitment, accession,
                               service, and dismissal of individual military chaplains. Once

1
 This directive and policy memorandum was replaced by a new DoD Directive 1304.19 and DoD Instruction
1304.28 on June 11, 2004.


                                                     6
recruited, candidates must meet officership, professional, and
religious qualifications prior to becoming a military chaplain.
   •   Officership qualifications include the ability to obtain and
       hold a security clearance based on information submitted on
       Standard Form 86, “Questionnaire for National Security
       Positions.” In addition, an officer must pass any citizenship
       requirements, physical standards for military service, and
       satisfy age restrictions.
   •   Professional qualifications deal primarily with education
       from an accredited school. The candidate must possess a
       baccalaureate degree of not less than 120 hours and 72 hours
       of graduate education study in theology or related subjects.
   •   Religious qualifications include an endorsement from the
       chaplain’s RO. The applicant must be a fully qualified
       clergy of the faith group and must be willing to support
       religious pluralism.
Officership qualifications and day-to-day activities as a military
chaplain, to include training, assignments, conduct, and performance
are governed by DoD and Military Department regulations and
controlled by the Military Departments.
DoDD 1304.19 establishes the professional qualifications for
chaplain candidates. Although specific requirements differ, the
accession process is similar to the processes used by other
professions, like the Medical Corps and the Judge Advocate General
Corps. The sources of “licensing,” or the authority to practice the
profession, differ significantly. Doctors and lawyers must pass state-
sanctioned exams. However, chaplains receive authority to provide
religious services at the discretion of the endorsing agent, who
verifies that the chaplain applicant has received the requisite
education and religious leadership experience.
The October 14, 2003 policy memorandum modified the
requirements for the RO to certify and endorse chaplain candidates.
To sponsor a candidate for the chaplaincy, the RO must:
   •   be formed to meet a lay constituency need for a chaplain;
   •   hold an Internal Revenue Code (IRC) 501(c)(3) tax
       exemption status; and
   •   present a qualified candidate.
ROs must also agree that their candidates will perform their duties in
cooperation with religious ministry professionals from other
religious faith groups.




                    7
              The ROs submit endorsements to the AFCB. The DUSD(MPP),
              through the AFCB, retains responsibility for verifying that ROs and
              their endorsing agents continue to meet DoD requirements and are
              suitable for endorsing chaplain candidates.


Definitions
              The following definitions were used in this evaluation:
                 •   Adverse Information. Any substantiated adverse finding or
                     conclusion from an officially documented investigation or
                     inquiry.
                 •   Church. The Internal Revenue Service (IRS) has interpreted
                     tax laws enacted by Congress, Treasury regulations, and
                     court decisions to identify characteristics generally attributed
                     to churches. Accordingly, the key characteristics of a church
                     include: distinct legal existence; recognized creed and form
                     of worship; definite and distinct ecclesiastical government;
                     formal code of doctrine and discipline; ordained ministers
                     selected after completing prescribed courses of study;
                     literature of its own; established places of worship; regular
                     congregations; regular religious services; schools for the
                     religious instruction of the young; and schools for the
                     preparation of its ministers. The IRS uses a combination of
                     some or all of these characteristics to determine whether an
                     organization is a church for Federal tax purposes.
                 •   Endorsing Agent. An endorsing agent is the individual
                     authorized to provide or withdraw ecclesiastical
                     endorsements of religious ministry professionals on behalf of
                     an RO. The endorsing agent provides written documentation
                     that an applicant for the military chaplaincy is fully and
                     professionally qualified and endorsed to perform all offices,
                     functions, sacraments, ordinances, and ceremonies required
                     of a DoD chaplain for that RO, and is capable and authorized
                     to minister as required within a pluralistic environment.
                 •   Faith Group. A general, inclusive term that might be used
                     to refer to a religion, denomination, sect, or cult.
                 •   Internal Revenue Code 501(c)(3). Churches and religious
                     organizations, like many other charitable organizations,
                     qualify for exemption from Federal income tax under Internal
                     Revenue Code Section 501 (c)(3) and are generally eligible
                     to receive tax-deductible contributions.
                 •   Religious Ministry Professional. A religious ministry
                     professional is a fully qualified member of the clergy who is


                                  8
                       endorsed to represent an RO and to conduct its religious
                       observances or ceremonies. The professional may be an
                       ordained minister or the equivalent for those ROs that do not
                       require ordination.
                   •   Religious Organization (RO). An entity that is organized
                       and functions primarily to perform religious ministries to a
                       non-military lay constituency, and has met the religious
                       purposes test as defined by the IRS. We are using the
                       abbreviation RO to refer to religious organizations in this
                       report.
                   •   Religious Pluralism. The DoDI 1304.28, “Guidance for the
                       Appointment of Chaplains for the Military Departments,”
                       describes pluralistic environment as a descriptor of the
                       military context of ministry to support directly and indirectly
                       the free exercise of religion by all members of the Military
                       Services and their family members. The instruction defines it
                       as a plurality of religious traditions existing side-by-side in
                       the military.


Methodology - The Crystal Focus Process
                Crystal Focus is an independent and objective inspection or
                evaluation of a key DoD-wide program or process. The Crystal
                Focus process provides a transparent, yet focused evaluation of DoD
                issues. Normally, senior leadership requests these evaluations. We
                seek requestor input to develop objectives and to tailor product
                formats to best convey our findings. Crystal Focus products
                highlight the most significant issues and provide timely
                recommendations for senior leadership action. We conduct the
                reviews in accordance with the criteria in the March 1993 Quality
                Standards for Inspections published by the President’s Council on
                Integrity and Efficiency. The project team will perform follow-up
                on all recommendations resulting from a Crystal Focus project.
                Follow-ups will normally occur at 12 and 18 months after the project
                is completed.
                Prior to publishing the report, the Crystal Focus team briefs the
                results, observations, and recommendations to senior officials of the
                DoD Office of the Inspector General (IG); DoD management; the
                requestor of the review, and appropriate program managers. We
                provide program managers with the opportunity for formal comment
                and include their verbatim comments in the final report. See
                Appendix A for an explanation of the methodology used for this
                report. See Appendix G for a list of organizations visited.



                                    9
                The team conducted interviews with senior members in the Office of
                the Secretary of Defense (OSD) and leaders of the Military
                Departments, as well as representatives from the Internal Revenue
                Service, Federal Bureau of Prisons, Department of Justice Office of
                the IG, chaplain offices of the Military Departments, and security
                offices of the Military Departments. The Crystal Focus
                methodology included a comparison of chaplain program procedures
                with procedures for accessioning doctors and lawyers. We identified
                differences in education, training, and citizenship requirements, and
                the need for security clearances, where applicable.
                We also surveyed RO agents who endorsed applicants for the
                military chaplaincy. The purpose was to determine what information
                the agent had gathered on the endorsed applicant, and whether the
                agent maintained contact with the chaplain after endorsement.


Overall Assessment
                The DoD chaplain program reflects the efforts of OSD and the
                Services to meet the spiritual needs of Service members, while
                balancing national security and religious freedom. In addition, DoD
                now requires that ROs meet IRS tax exemption requirements. DoD
                directives limit program participation to professionally qualified
                clergy who fulfill the needs of members of the Armed Forces. The
                chaplain program stresses religious pluralism.
                The focus of program regulations and procedures is to obtain
                professionally qualified clergy and to verify the candidate’s
                officership, professional, and religious qualifications. Officership
                qualifications for chaplains are virtually identical to the
                qualifications of military officers recruited for other specialties. The
                professional qualifications for chaplains are similar and comparable
                to other military professionals, such as doctors and lawyers.
                However, the certification of religious qualifications is unique within
                the military in that the leaders of a faith group determine the
                religious qualifications of their clergy person. DoD relies on
                religious organizations and their representative agents, which are
                outside government purview, to determine religious qualifications.
                During our review, DoD chaplain program officials made a
                concerted effort to update policy and incorporated many of our
                suggested changes. However, the DUSD(MPP) could further
                improve internal operating procedures of the AFCB to administer
                DoD policies regarding religious organizations and their agents who
                endorse chaplain candidates.
                DoD has an established process for recognizing and reviewing ROs
                that endorse applicants for the chaplaincy, and military procedures


                                    10
for recruiting, accessing, training, retaining, and dismissing
chaplains. However, we made five observations and identified
opportunities to improve the overall chaplain program with five
related recommendations.




                   11
Observations
           The chaplain program reflects the efforts of DoD to meet the
           spiritual needs of Service members, while balancing national
           security and religious freedom. However, the DUSD(MPP) could
           improve the procedures for managing information on ROs and their
           agents who endorse chaplain candidates. The following observations
           were made in support of the announced objectives:
               •   Observation 1. DoD adds a new religion when the Military
                   Departments recognize the needs of a lay constituency or
                   accept a qualified chaplain who represents a new religion.
               •   Observation 2. The AFCB has not exercised the option of
                   revoking the recognition of an RO that fails to meet the DoD
                   requirements.
               •   Observation 3. DoDI 1304.28 does not include nonreligious
                   criteria to disqualify either an RO or its endorsing agent.
               •   Observation 4. The Army and the Navy have not established
                   procedures to withdraw or remove a chaplain’s designation
                   for cause.
               •   Observation 5. The DUSD(MPP) has not issued
                   implementing instructions to clarify policy expressed in the
                   October 14, 2003 memorandum on the “Appointment of
                   Chaplains for Military Service.”
           On June 11, 2004, the DUSD(MPP) revised DoDD 1304.19 and
           published DoDI 1304.28 implementing instructions. The new
           policies require that for ROs to participate in the DoD chaplain
           program, the RO must:
               •   be tax exempt as a church under IRC 501(c)(3);
               •   obtain an Employer Identification Number;
               •   notify the AFCB immediately when changes occur in the
                   status of the RO, or the designated endorsing agent, or if
                   contact addresses and telephone numbers of either are
                   changed; and
               •   provide to the AFCB annually a complete list of endorsed
                   chaplains.
           During the evaluation, we reviewed the draft directive and
           instruction and identified areas for improvement. The DUSD(MPP)
           agreed with our suggestions and incorporated the changes to the
           draft policy.



                               12
Addition of New Religions to the Chaplain Program

Observation 1
                Officials of the Armed forces Chaplains Board (AFCB) informed us
                that the Department of Defense (DoD) adds a new religion when the
                Military Departments recognize the need based on their lay
                constituencies. After the need is established, the Military will accept
                a qualified chaplain, who represents the new religion, based on
                policies and procedures outlined in the DoD Directive 1304.19,
                “Appointment of Chaplains for the Military Departments” and the
                June 11, 2004, DoD Instruction, “Guidance for the Appointment of
                Chaplains for the Military Departments.” However, the Military will
                only access a chaplain candidate who also meets Military
                requirements. Therefore, the addition of a new religion to the
                chaplain program is incidental to the requirement for and acceptance
                of a professionally qualified clergy to the military chaplaincy.


Discussion
                Religious Organizations (ROs) may provide applicants for the DoD
                chaplaincy for consideration, but Military Departments will only
                access an applicant based on the religious needs of members of their
                Service, family members, and other authorized persons, such as
                retirees and civilian employees. The addition of a new religion to
                the chaplain program becomes contingent upon:
                   •   Lay constituency need for a chaplain;
                   •   AFCB acceptance of an RO seeking DoD recognition to
                       provide chaplains for the military; and
                   •   Military Department acceptance of the endorsed individual
                       for the chaplaincy.
                To present applicants for the DoD chaplain program, a religious faith
                group must meet specific requirements. The AFCB does not
                consider what faith group the RO represents provided the
                organization meets DoD administrative filing requirements and
                endorses a fully and professionally qualified chaplain applicant. To
                qualify, the applicant has to represent a faith needed by a Service lay
                constituency, be endorsed by an RO, be committed to serve in a
                pluralistic environment, and meet the officer qualifications for
                military service.




                                    13
Impact
              DoD policies and procedures, including the requirements stated in
              the Under Secretary of Defense for Personnel and Readiness
              October 14, 2003 memorandum (see Appendix C), focus on the
              prospective chaplain’s qualifications and the administrative filing
              requirements of the sponsoring RO. DoD chaplain program officials
              stated that specific control procedures to review religious doctrine or
              practices could lead to questions concerning individual rights to
              religious freedom guaranteed under the United States Constitution.
              The current process allows for the addition of any faith represented
              by a prospective chaplain who respects the free exercise of religion
              and agrees to provide services in a pluralistic environment.



Recommendations
              None required.



Management Comment
              The Deputy Under Secretary of Defense for Military Personnel
              Policy concurred with the observation.




                                  14
Review and Recognition of Religious Organizations

Observation 2
                According to the DoD Directive 1304.19, “Appointment of
                Chaplains for the Military Services,” religious organizations (ROs)
                must verify that they continue to meet specific requirements. The
                Armed Forces Chaplains Board (AFCB) has not exercised the option
                of revoking the recognition of 21 ROs that failed to meet DoD
                requirements.


Discussion
                The AFCB oversight of endorsing ROs includes the gathering and
                maintenance of accurate information on the ROs, their endorsing
                agents, and other officials of the organizations. In 2000, the AFCB
                notified ROs to submit written verification of continued compliance
                with DoDD 1304.19 requirements. The verification procedure
                updates current names, addresses, and phone numbers of RO officers
                and endorsing agents. Twenty-one of the 196 ROs did not respond
                to original and follow up requests. The October 14, 2003 policy
                change also requires ROs that endorse chaplains to meet tax
                exemption requirements under Internal Revenue Code (IRC)
                501(c)(3). The DoDD 1304.19 gives the AFCB authority to revoke
                recognition of an RO that has not verified it meets the requirements
                for recognition as an ecclesiastical endorsing organization.
                However, the AFCB had not exercised that authority. The AFCB
                should have notified the delinquent ROs of their possible loss of
                recognition and should have taken positive measures to address the
                ROs’ non-compliance. The AFCB needs internal operating
                procedures to ensure current data on ROs and endorsing agents are
                maintained.

 Impact
                The AFCB list of 196 endorsing ROs was not accurate, which
                weakened the AFCB oversight role over the ROs.




                                   15
Recommendations
              The Deputy Under Secretary of Defense for Military Personnel
              Policy should strengthen oversight of religious organizations.
              Suggested actions are:
              a. Establish internal operating procedures for the Armed Forces
                 Chaplains Board to verify compliance by religious organizations
                 with DoD requirements;
              b. Require religious organizations to comply with the verification
                 procedures in DoD Instruction 1304.28; and
              c. Revoke recognition of all religious organizations that fail to
                 comply.



Management Comments
              The Deputy Under Secretary of Defense for Military Personnel
              Policy concurred with this observation and recommendations.




                                  16
Review and Recognition of Religious Organizations
(continued)
Observation 3
                 The June 11, 2004, Department of Defense Instruction (DoDI)
                 1304.28, “Guidance for the Appointment of Chaplains for the
                 Military Departments,” does not include nonreligious criteria to
                 disqualify either a religious organization (RO) or its endorsing agent.



Congressional Interest
                 Senator Schumer stated in his request letter that two ROs with
                 “disturbing connections to terrorism” had endorsed chaplains. In
                 addition, the former endorsing agent of one of the ROs was indicted
                 on Federal charges. The ROs in question remain eligible to provide
                 candidates for the DoD chaplain program. Existing regulations do
                 not define instances when the Armed Forces Chaplains Board
                 (AFCB) should take action. Examples of such instances may
                 include proven connection to terrorist groups, serious breaches of
                 ethics, or advocating overthrow of the U.S. Government.
                 The DoD Inspector General met with Senators Kyl and Feinstein on
                 October 28, 2003, concerning muslim cleric issues. During that
                 meeting, both senators expressed their concern regarding security
                 reviews of ROs and endorsing agents. The senators suggested that
                 DoD or the Department of Justice should perform background
                 investigations on ROs and their endorsing agents before vetting a
                 chaplain.


Discussion
                 The DoDI 1304.28 outlines the criteria that ROs must meet in order
                 to endorse candidates for service as military chaplains. The
                 endorsing agents represent the ROs, not the Government. DoD does
                 not control the endorsing agents’ appointments, their qualifications,
                 or their endorsements of chaplain candidates. Therefore, DoD
                 should have procedures to disqualify ROs and their endorsing agents
                 for cause in order to reassure the public and Congress that DoD is
                 safeguarding the military against ROs and endorsing agents guilty of
                 violating U.S. laws.
                 The AFCB does not have the authority to conduct formal
                 background investigations on ROs or their endorsing agents. We


                                     17
consulted with officials from the DoD Office of General Counsel,
Office of General Counsel, Inspector General, and the Federal
Bureau of Investigation (FBI) National Joint Terrorism Task Force
about performing background investigations. Based on these
consultations, we determined that privacy laws prohibit disclosure of
personal information without the individual’s approval. Attorney
General policy does not authorize non-law enforcement officials,
such as the Deputy Under Secretary of Defense for Military
Personnel Policy (DUSD[MPP]) or the AFCB, to routinely request
and obtain information concerning ongoing investigations of
non-Government organization officials and other non-DoD
personnel. However, DoD can request a law enforcement type
review in cases of probable cause regarding criminal activity.
Information on ROs and endorsing agents may be available from
non-law enforcement sources during the background investigations
of chaplain candidates. When candidates use ROs or endorsing
agents as references, Defense Security Service investigators should
query those references. In addition, program officials learn of
indictments and convictions of ROs, their officers, and endorsing
agents from the media. However, relying solely on the media is, at
best, a questionable practice, given the inherent problems of
accuracy, credibility, and bias.
Currently, procedures are in place to gather, evaluate, and act on
adverse information. For example, DoD reviews equal employment
opportunity files and publicly disclosed financial records to identify
adverse information about General or Flag Officers. As another
example, the Federal Bureau of Prisons requests and receives
screening information from the FBI that includes a threat assessment
of national and local religious endorsing organizations. This
information is advisory in nature and does not constitute a formal
recommendation by the FBI.
It may be reasonable to establish a screening process similar to the
Federal Bureau of Prisons that routinely canvasses existing FBI
databases for adverse information concerning ROs and endorsers.
This type of information would support judgments about the
religious organizations and individuals endorsing DoD chaplains and
reinforce the need to develop applicable nonreligious disqualifying
criteria.
Although we are not advocating a specific criterion or screening
procedure, we believe that the DUSD (MPP) should consider
implementing a process that can identify those ROs or endorsing
agents found guilty of violating U.S. law or breach of any other non-
religious criteria. Such action would exercise due diligence toward
maintaining full faith and confidence in ROs and their endorsements
of chaplains to the Military.


                   18
Impact
              Illegal actions or breaches of non-religious criteria of ROs or their
              endorsing agents could affect the selection process for military
              chaplains. Moreover, relations with ROs and their endorsing agents
              that are linked to illegal actions or breaches of non-religious criteria
              may negatively influence public perception of the DoD chaplain
              program and the DoD as a whole.



Recommendations
              The Deputy Under Secretary of Defense for Military Personnel
              Policy should:
              a. Establish nonreligious criteria to justify the Armed Forces
              Chaplains Board withdrawal or removal of a religious organization
              or its agent from participating in the DoD chaplain program.
              Examples of such criteria could include:
                  •   Advocating the violent overthrow of the U.S. Government;
                  •   Listed on a watch list as a terrorist organization;
                  •   Conviction of a religious organization or its principal leaders
                      in connection with terrorism;
                  •   Conviction of endorsing agents in connection with any
                      criminal activity; and
                  •   Conviction of endorsing agents for acts constituting a breach
                      of non-religious criteria as developed by the Deputy Under
                      Secretary of Defense for Military Personnel Policy.
              b. Develop screening procedures for collecting existing information
              from Federal Bureau of Investigation databases and public sources
              relating to chaplains, their supporting religious organizations, and
              endorsers.
              c. Develop and impose program sanctions against those religious
              organizations or their agents that fail to meet the criteria developed
              for Recommendation a. above. Examples of sanctions include
              removing the religious organization from the Armed Forces
              Chaplains Board list of recognized endorsing organizations or
              disqualifying its agent from endorsing chaplains.
              d. Promptly refer to the DoD Inspector General any specific
              allegation impacting DoD leadership’s “full faith and confidence”
              regarding adverse conduct or behavior of an RO or endorsing agent.




                                  19
Management Comments and Evaluation Response
              The Deputy Under Secretary of Defense for Military Personnel
              Policy responded to Recommendations a. and b. that were included
              in the draft report. The complete response is included in
              Appendix D.
              We added language in the discussion and congressional interest
              paragraphs to explain the intent of the recommendations, reworded
              Recommendations a. and b. and added Recommendations c. and d.
              We request that the Deputy Under Secretary of Defense for Military
              Personnel Policy address the new recommendations in a response to
              the final report.
              Management Comments. The Acting DUSD(MPP) nonconcurred,
              stating that recommended actions “were legally problematic to the
              DoD Office of General Counsel . . . . The DoD must remain
              responsible for judgments about a person’s bona fides to serve as an
              officer and a chaplain . . . . A chaplain ordinarily receives sufficient
              scrutiny for selection, appointment, and merit-based retention – all
              centering on individual merit . . . . [The] Treasury’s Internal Revenue
              Service should remain the focal point for institutional merit.”
              To make the recommendation executable, the Acting DUSD(MPP)
              suggested that “DoDIG should report its concerns regarding
              frequency of review of previous tax-exemption determinations to the
              Treasury Inspector General and urge more frequent reviews as a
              means of reducing the potential for enriching coffers of those who
              might post harm to the Nation.”
              I&E Response. Management comments are not fully responsive to
              the recommendations. The intent of the recommendations was for
              DUSD(MPP) to develop a process to react to available information,
              not to proactively judge institutional merit. At a minimum, DoD
              should be able to suspend or reject endorsements from any religious
              organization or endorsing agent involved in terrorist or criminal
              actions. We do not anticipate that DoD would contemplate adverse
              action while an investigation of alleged wrongdoing was under way.
              However, the DUSD(MPP) should have a process to address
              congressional concerns by taking appropriate action on organizations
              and agents that the courts have found guilty of violating laws aimed
              to safeguard the safety of the United States and its citizens.
              The DoDI 1304.28, “Guidance for the Appointment of Chaplains for
              the Military Departments,” dated June 11, 2004, and the
              October 14, 2003 memorandum requires tax exemption status for
              ecclesiastical endorsing organizations. Therefore, DUSD(MPP)


                                  20
should ensure that the Department of Treasury’s Internal Revenue
Code (IRC) 501(c)(3) criteria are adequate as a standard to qualify
an RO. Resolving concerns about the credibility for DoD’s use of
the IRC 501(c)(3) as a tax exempt requirement is the responsibility
of DUSD(MPP).
We reworded Recommendations a. and b. and added
Recommendations c. and d. to emphasize the need for due diligence
in screening religious organizations and their endorsing agent.




                   21
Procedures for Recruiting, Accessing, Training, Retaining,
and Dismissing Chaplains

Observation 4
                    The Army and the Navy have not established procedures to
                    withdraw or remove a chaplain’s designation for cause.


Discussion
                    Military chaplains receive their designation insignia upon
                    completion of Military Department accession requirements, provided
                    a religious organization (RO) has also endorsed the prospective
                    chaplain’s qualifications as a religious leader. Only the endorsing
                    agent, acting for an RO, can retract the religious endorsement of a
                    chaplain. However, the Military Departments can and do prosecute
                    chaplains for offenses under the Uniform Code of Military Justice.
                    Should a Military Department determine that the offense warrants
                    removal of the individual from chaplain responsibilities, the Military
                    Department must request that the chaplain’s RO withdraw its
                    endorsement in order to remove the chaplain’s designation.
                    Two issues are associated with the request for withdrawal of
                    endorsement. First, Armed Forces Chaplains Board (AFCB)
                    officials stated that providing personal information about a
                    chaplain’s status to ROs during a disciplinary process was restricted
                    by the Privacy Act. Thirteen of 45 endorsing agents we surveyed
                    stated they experienced difficulties obtaining the information that the
                    agents could have used to counsel or withdraw their endorsement of
                    a chaplain who had failed to meet the ethical or moral standards of
                    their RO. Unless informed by the chaplain of the details surrounding
                    his or her disciplinary issues, the endorsing RO may not always have
                    sufficient information to withdraw its endorsement. Second, the RO
                    may disagree with the determination of a Military Department on the
                    individual’s ability to perform as a clergy and may refuse to
                    withdraw its endorsement.

 Procedures of the Military Departments
                    The Military Departments have different procedures to withdraw a
                    chaplain’s designation or specialty code for adverse personnel
                    actions. In the Army, adverse personnel actions did not
                    automatically cause the loss or change of an officer’s chaplain
                    designation. The chaplain’s commander informs the Executive

                                        22
                 Officer of the Office of the Army Chief of Chaplains of the pending
                 or probable adverse action against a chaplain. Upon such
                 notification, the Army directs the chaplain to tell his or her endorsing
                 agent of the adverse action. If the chaplain fails to notify the agent,
                 the agent would not know to retract the chaplain’s endorsement. The
                 Navy similarly relies on the RO to withdraw its endorsement.
                 Neither the Army nor the Navy has a policy for the direct withdrawal
                 of the chaplain designation as a result of adverse actions.
                 The Air Force instituted a different procedure. Air Force
                 Instruction 52-102, “Chaplain Professional Development,” provides
                 that under specific circumstances, including failure to maintain
                 professional or ethical standards, the Air Force has the authority to
                 withdraw the chaplain designation. Under these circumstances the
                 Air Force chaplain is not qualified, nor permitted, to perform
                 religious ministry duties.

Impact
                 Unless the Army and the Navy adopts procedures to remove the
                 chaplain insignia or designation, a chaplain engaging in actions that
                 warrant relief from duties or dismissal for cause may continue to
                 serve as a chaplain until that chaplain’s RO withdraws its
                 endorsement. Failure to adopt such procedures could result in a
                 chaplain performing religious duties while officially suspended. A
                 person seeking religious counsel from such a chaplain would likely
                 be unaware of the suspension status if the designation has not been
                 removed. Additionally, the suspension could be over a significant
                 period of time pending the withdrawal of endorsement by the
                 religious organization. As noted in a previous Observation, RO
                 response to AFCB requests for information has been marginal.



Recommendation
              The Chiefs of Chaplains of the Army and the Navy should revise
              their instructions to address removal or withdrawal of the chaplain
              designation when that individual fails to uphold professional or
              ethical standards or is being removed for cause.



Management Comments and Evaluation Response
              Deputy Under Secretary of Defense for Military Personnel
              Policy Response. The DUSD(MPP) stated that the Army and the
              Navy Chief of Chaplains are reviewing the draft report and that any


                                     23
actions [response] on this Observation and Recommendation are a
Service-level responsibility.
Army Response. The Army nonconcurred with this
Recommendation stating “current Army policies and personnel
procedures provide for adjudication of offenses within the Army's
legal and administrative systems. These extant procedures for
judicial and non-judicial personnel actions are applicable to all
officers including chaplains. Removal of an officer's designation as
chaplain ought not to be punitive or viewed as an initial response to
alleged offenses or misconduct. No requirement exists to remove a
chaplain's branch designation as a primary response to an alleged
offense.” See Appendix E.
Navy Response. The Navy concurred stating, “current Navy
policies and personnel procedures provide for adjudication of
offenses within the Navy's legal and administrative systems. These
extant procedures for judicial and non-judicial personnel actions are
applicable to all officers including chaplains. Removal of an
officer's designation as chaplain ought not to be punitive or viewed
as an initial response to alleged offenses or misconduct. No
requirement exists to remove a chaplain's corps designation as a
primary response to an alleged offense. However, there may be
reason to explore such authority and procedure after initial actions
have been taken and are to be done so from the standpoint of
professional qualifications to provide religious ministry in the
Department of the Navy. Currently several instructions governing
the policy on chaplain service in the Navy are under revision. The
recommendation of the DoD IG will be considered during this
process.” (Emphasis added) See Appendix F.
I&E Response. The Air Force has procedures in place for the
removal of chaplain designation and insignia and we consider the
Navy comments to be responsive to the Recommendation. We
request the Army reconsider and provide a formal response to the
final report.
The Recommendation concerns chaplains undergoing actions that
warrant relief from duties or dismissal for cause. We believe that the
removal of a chaplain designation is not punitive in nature. Instead,
the designation removal is protective of those members of the
military that might assume an officer wearing the designation is a
practicing chaplain. Otherwise, a military member could request
professional services, such as, counseling, communion, or the
hearing of confession from a chaplain who may be unqualified or
suspended from chaplain duties.




                   24
Oversight of Chaplain Program

Observation 5
                DoD 5025.1-M, “DoD Directive System Procedures, March 3, 2003,
                requires that policy memorandums be incorporated into a formal
                directive within 180 days of issuance. The Deputy Under Secretary
                of Defense for Military Personnel Policy (DUSD[MPP]) needs to
                issue implementing instructions to clarify policy written in the Under
                Secretary of Defense October 14, 2003 memorandum, “Appointment
                of Chaplains for the Military Service.” Also, the policy is open to
                interpretation concerning which requirements under Internal
                Revenue Code (IRC) 501(c)(3) apply. Therefore, the policy may not
                result in the intended strengthening of DoD oversight procedures for
                religious organizations.


Discussion
                The October 14, 2003 policy memo stipulates that a religious
                organization (RO) desiring to sponsor chaplains must hold tax-
                exempt status under IRC 501(c)(3). The IRC allows churches,
                charitable organizations, and others that qualify to file for tax
                exemption under Section 501(c)(3). The amount and frequency of
                information and documentation that each type of organization
                submits to the Internal Revenue Service (IRS) in support of its
                application differs. The DUSD(MPP) policy memo is silent on
                whether an RO has the option to file as a church, a charitable
                organization, or some other entity eligible for tax exemption under
                Section 501(c)(3). The memo also does not address pre-existing
                conditions that affect filing requirements.
                To apply for tax exemption, an organization submits IRS Form 1023,
                “Application for Recognition of Exemption.” There are some
                exceptions. For example, churches and organizations formed before
                October 9, 1969, are not required to submit Form 1023 to be granted
                the tax exemption. However, they may choose to do so to provide
                information to the public.
                The IRS lists organizations that are qualified to receive tax-
                deductible contributions in IRS Publication 78, “Cumulative List of
                Organizations Described in Section 170(c) of the Internal Revenue
                Code of 1986.”
                To be classified as a church, the RO submits to the IRS their
                information about funding, religious practices, doctrines, and



                                   25
frequencies of services and other church related information. IRS
standards for churches include:
     1) “That the particular beliefs of the organization are truly and
        sincerely held.
     2) That the practices and rituals associated with the
        organization’s religious belief or creed are not illegal or
        contrary to clearly defined public policy.”
The RO files the information only once and no annual financial
statement is required thereafter. By contrast, a charitable
organization provides no information about religious practices and is
required to file annual financial forms to show sources of funding if
total funding exceeds $25,000. Therefore, DoD may not find any
information from IRS public records concerning the religious
practices and funding sources of a church. DoD may be able to get
financial reports only from charitable organizations.
The IRS had no records for 110 of the 196 religious organizations
that currently endorse DoD chaplains. The absence of records may
be explained by the exemption from filing requirements for churches
and organizations that existed before 1969. The IRS identified 11 of
the 86 organizations for which records existed as charitable
organizations. The remaining 75 were churches. DoD implementing
instructions should address what type of information yielded through
compliance with the IRC 501(c)(3) requirements is essential for DoD
oversight. When contacted, IRS officials stated they were not aware
of the October 14, 2003 policy memo requiring tax exemption status.
When surveyed, responses by members of the National Conference
on Ministry to the Armed Forces reflected concern about
communications with the AFCB and procedures for implementing
their policies.
The DoDD 1304.19, “Appointment of Chaplains for the Military
Departments,” was reissued on June 11, 2004 with the related DoDI
1304.28, Guidance for the Appointment of Chaplains for the Military
Departments.” The October 14, 2003 policy memorandum was
implemented in the revised Instruction, which requires that an RO
file for tax exemption as a church for Federal tax purposes.
Therefore, the ROs will not have to submit annual financial reports
to the IRS to qualify as endorsers of chaplains. However, they will
be required to describe the characteristics that qualify them as
churches that serve lay constituencies.




                   26
Recommendations
              The Deputy Under Secretary of Defense for Military Personnel
              Policy should:
              a. Publish a new directive with revised policy and instructions to
              implement the October 14, 2003 policy memorandum; and
              b. Direct the Armed Forces Chaplains Board to conduct outreach
              with stakeholders and the Internal Revenue Service to ensure
              successful implementation of the new DoD Directive concerning
              tax-exempt status for religious organizations.



Management Comments
              Management concurred with the observation and recommendations.
              The Principle Deputy Under Secretary of Defense for Personnel and
              Readiness replaced DoD Directive 1304.19, “Appointment of
              Chaplains for the Military Departments,” with DoD Directive
              1304.19, “Appointment of Chaplains for the Military Departments,”
              dated June 11, 2004, and a separate implementing instruction, DoD
              Instruction 1304.28, “Guidance for the Appointment of Chaplains
              for the Military Departments,” dated June 11, 2004. DUSD(MPP)
              stated that the AFCB maintains contact with stakeholders like the
              National Conference on Ministry in the Armed Forces to discuss
              DoD chaplain issues and that they will continue to maintain a
              dialogue.




                                 27
Appendix A – Methodology
Scope and Methodology
Scope. This Crystal Focus project examined chaplain policies or processes at DoD and the
headquarters level of the Military Departments. We did not review or analyze the effect of
policy on any particular religion or RO.

Work Performed. We reviewed chaplain policy at OSD and at the headquarters of the Military
Departments. The Inspector General discussed the vetting of religious organizations with OSD
and Congressional leadership. We relied on published research, literature, and congressional
transcripts dated from September 1988 through February 2004. The team performed the
following steps between October 2003 and April 2004.

              •   Reviewed relevant DoD, Army, Navy, and Air Force policy and guidance
                  governing the chaplain program.

              •   Reviewed applicable audits, evaluations, and inspections from the past 5 years
                  associated with the chaplain program.

              •   Conducted interviews with senior OSD officials, as well as, representatives of
                  the IRS, Federal Bureau of Prisons, Department of Justice Office of the IG,
                  chaplain offices of the Military Departments, and security offices of the
                  Military Departments. See Appendix D for a list of organizations visited.

              •   Distributed a survey questionnaire to 110 endorsing agents and other
                  participants in the December 2003 National Conference on Ministry to the
                  Armed Forces. We received 45 responses representing 45 different ROs.

              •   Analyzed current DoD policy and guidance with proposed draft DoD policy
                  and guidance and formally made suggested changes to the draft policy and
                  guidance.

              •   Analyzed IRS procedures for issuing, reviewing, and maintaining
                  IRC 501(c)(3) tax exemption status. Additionally, we reviewed IRS data on
                  ROs endorsing chaplains to the DoD.


 Standards for Inspections
We performed the inspection in accordance with the standards established by the President’s
Council on Integrity and Efficiency in the publication “Quality Standards for Inspections,”
March 1993.




                                               28
Appendix B – Congressional Concerns
 Questions Raised by Senator Schumer, March 10, 2003
How do we ensure that certifying religious organizations (ROs) are “of the highest caliber,
have unimpeachable reputations, and endorse religious pluralism?”
     The chaplain, not the religious organization, provides ministry to the military.
     DoDD 1304.19 requires chaplains of the Military Departments to “facilitate ministries
     appropriate to the rights and needs of other faith groups in the pluralistic military
     environment.” The Military Chiefs of Chaplains, as members of the Armed Forces
     Chaplains Board (AFCB), provide recommendations to the Under Secretary of Defense for
     Personnel and Readiness (USD[P&R]) on the “religious, ethical, and moral standards for
     the Military Services.” As the senior clergy person for their Military Department, they are
     responsible for the proper implementation of DoD policy on religious pluralism.
     In accordance with the October 14, 2003, DoD policy memorandum on the Appointment of
     Chaplains for Military Departments, organizations desiring to endorse chaplains must meet
     the criteria for tax exemption under Internal Revenue Code (IRC) 501(c)(3). Under that
     section of the code, the Internal Revenue Service (IRS) maintains two basic guidelines in
     determining that an organization meets the religious purposes test:
            •   The particular religious beliefs of the organization are truly and sincerely held;
                and
            •   The practices and rituals associated with the organization’s religious beliefs or
                creed are not illegal or contrary to clearly defined public policy.
     DoD relies upon IRS verification of the information submitted by the organization to
     obtain tax-exempt status. This action should improve DoD controls over endorsing
     religious organizations. The DUSD(MPP) will also strengthen DoD controls by having the
     AFCB retain current, as well as adverse, information on ROs and by updating policy.

“Is it appropriate for the GSISS [Graduate School of Islamic Social Sciences] and
AMAFVA [American Muslim Armed Forces and Veterans Association] to continue in their
advisory capacities?”

     We did not include reviews of specific endorsing organizations. Prior to October 14, 2003,
     DoD had few or no tools to conduct such an assessment. However, as of October 14, 2003,
     DoD requires new ROs recommending religious ministry professionals as chaplains to
     have tax-exempt status in accordance with IRC 501(c)(3). In addition, if the Principle
     Deputy Under Secretary of Defense for Personnel and Readiness implements the
     recommendations in this report, the AFCB should have additional useful information to
     determine whether a particular RO should be acceptable to endorse chaplains.




                                                29
 Questions Raised in Congressional Testimony, October 14, 2003

Existing criteria for certifying religious organizations are insufficient. What do you plan to
add? (Senator Schumer)

     OSD has drafted policy that implements the requirement for IRC 501(c)(3) tax-exempt
     status and increases the frequency of self-certification for ROs from every three years to
     annually. In addition, the implementation of recommendations in Observation 3 of this
     report will significantly improve DoD controls over endorsing ROs.

What are the details behind the 2001 delegation to Saudi Arabia sponsored by the Muslim
World League? (Senator Schumer)

     The matter is outside the scope of this evaluation of the DoD chaplain program.

How do you deal with defining religions and ruling certain religions unacceptable?
(Senator Durbin)

     DoD is committed to the protection of religious guarantees under the First Amendment to
     the U.S. Constitution. Specific control procedures for reviewing religious doctrine or
     practices could lead to public perception that DoD favored one religion over another, or
     may raise questions concerning guaranteed religious freedom.


 Questions Raised by Senator Kyl in a Meeting with the Inspector General
 of the Department of Defense, October 28, 2003

Is DoD adequately reviewing endorsing agencies?

     ROs and their representing agents act as endorsing agencies for military chaplains. DoD
     has established criteria for both religious organizations and their agents’ involvement in the
     program. However, First Amendment religious freedoms apply, and the DoD is
     constrained by the lack of any direct relationship between DoD and the endorsing
     organizations. DoD can improve oversight of endorsing agents through operating
     procedures to: (1) verify compliance to DoD requirements by new and current ROs; (2)
     require ROs to provide their IRC 501(c)(3) data; and (3) reject all future religious
     endorsements issued by those organizations that no longer comply with DoD policy.

Do the current Muslim Clerics represent the current mix of Muslim Service members?

     As of April 2004, the 12 Islamic DoD chaplains on active duty represented Sunni Islam.
     The relative representation among military members is unknown. Military members
     provide religious affiliation on a voluntary basis, and the Military Departments do not
     differentiate between the branches of Islam.




                                                30
Appendix C – Policy Memorandum




                  31
Appendix D. DoD Comments




                  32
33
34
35
Appendix E – Army Comments




                  36
Appendix F – Navy Comments




                  37
Appendix G – Organizations Visited
   Acting Deputy Under Secretary of Defense (Military Personnel Policy)
          Armed Forces Chaplains Board
                Executive Director


   The Chiefs of Chaplains for the Army, the Navy and the Air Force


   Army Security Office
         Central Clearance Facility


   Navy Security Office
         Department of the Navy Central Adjudication Facility


   Air Force Security Office
          Information Security Division, Director of Security Forces


   Department of Justice Inspector General


   Federal Bureau of Prisons


   Internal Revenue Service
           Tax Exempt and Government Entities Division


   National Conference on Ministry to the Armed Forces
          Executive Committee




                                          38
Appendix H – Acronym List

   AFCB        Armed Forces Chaplains Board

   DoDD        Department of Defense Directive

   DoDI        Department of Defense Instruction

   DUSD(MPP)   Deputy Under Secretary of Defense (Military Personnel
               Policy)

   FBI         Federal Bureau of Investigation

   IRC         Internal Revenue Code

   IRS         Internal Revenue Service

   IG          Inspector General

   OSD         Office of the Secretary of Defense

   RO          Religious Organization




                                39
Appendix I – Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)
  Deputy Under Secretary of Defense (Military Personnel Policy)
     Armed Forces Chaplains Board

Department of the Army
Inspector General, Department of the Army
Chief of Chaplains

Department of the Navy
Naval Inspector General
Director of Religious Ministries Chief of Chaplains of the Navy

Department of the Air Force
Inspector General, Department of the Air Force
Chief of the Chaplain Service

Non-Defense Federal Organizations and Individuals
Department of Justice
  Office of the Inspector General
  Federal Bureau of Investigation
Department of the Treasury
  Internal Revenue Service
     Tax Exempt and Government Entities Division

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Judiciary Subcommittee on Technology, Terrorism, and Government Information
House Committee on Appropriations
House Subcommittee on Defense
House Committee on Armed Services
House Committee on Government Reform
House Committee on the Judiciary
House Subcommittee on National Security, Emerging Threats, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and the
  Census, Committee on Government Reform


                                                 40
THE MISSION OF THE OIG DoD

The Office of the Inspector General of the Department of Defense was established by
Congress as one of the “independent and objective units [within listed ‘establishments,’
including the Department of Defense] to conduct and supervise audits and investigations
relating to the programs and operations of those establishments.” As the principal
advisor to the Secretary of Defense in all Inspector General matters, the Inspector
General serves as an extension of “the eyes, ears, and conscience” of the Secretary. In
support of the mission of the Department of Defense, the Office of the Inspector General
endeavors to:

       • “Provide leadership…to promote economy, efficiency and effectiveness;”
       • Prevent and detect “fraud, waste, and abuse;”
       • “Provide policy direction for audits and investigations;”
       • “Provide a means for keeping the Secretary of Defense and the Congress fully
          and currently informed about problems and deficiencies;” and
       • “Give particular regard to the activities of the internal audit, inspection, and
          investigative units of the military departments with a view toward avoiding
          duplication and insuring effective coordination and cooperation.”



TEAM MEMBERS

The Special Projects and Technical Support Division, Inspections and Evaluations
Directorate, Office of the Deputy Inspector General for Inspections and Policy, Office of
the Inspector General for the Department of Defense prepared this report. Personnel who
contributed to the report include Michael R. Herbaugh – Team Leader, Madelaine E.
Fusfield, George P. Marquardt, LTC Linda Daniels (USA), David L. Leising, and Maj.
Eric Kase (USAF).



ADDITIONAL REPORT COPIES

Contact us by phone, fax, or e-mail:
 Inspections and Evaluations Directorate, Deputy Inspector General for Inspections and Policy
 COM: 703.604.8772 (DSN 664.8772)
 FAX: 703.604.9769
 E-MAIL: crystalfocus@dodig.osd.mil
